                                               EMPLOYMENT AND
                                               TRAINING ADMINISTRATION


Office of Inspector General—Office of Audit





                                               RECOVERY ACT: PLANNING AND COORDINATION
                                               OF WORKFORCE DEVELOPMENT ACTIVITIES WITH
                                               FEDERAL INFRASTRUCTURE INVESTMENTS
                                               NEEDED IMPROVEMENT




                                                This audit was performed by WithumSmith+Brown PC, CPAs, under contract to the
                                                Office of Inspector General, and by acceptance, it becomes a report of the Office of
                                                Inspector General.



                                                                         ____________________________
                                                                        Assistant Inspector General for Audit




                                                                                Date Issued:          September 30, 2011
                                                                             Report Number:             18-11-010-03-001
U. S. Department of Labor                                      September 2011
Office of Inspector General
Office of Audit                                                RECOVERY ACT: PLANNING AND COORDINATION OF
                                                               WORKFORCE DEVELOPMENT ACTIVITIES WITH
                                                               FEDERAL INFRASTRUCTURE INVESTMENTS NEEDED
BRIEFLY…                                                       IMPROVEMENT

Highlights of Report Number: 18-11-010-03-001, issued to       WHAT OIG FOUND
the Assistant Secretary for Employment and Training.
                                                               We found that even though there was no specific
WHY READ THE REPORT                                            requirement to coordinate the workforce system with
                                                               federal infrastructure investments, several planning
Congress enacted the American Recovery and                     initiatives were undertaken at the federal, state, and local
Reinvestment Act of 2009 (Recovery Act) to promote             levels to encourage cross-collaboration. However, we
economic recovery and increase employment and training         found the implementation of these planning efforts was
opportunities. The Recovery Act did not specifically           generally informal and not well-coordinated.
require coordination of activities related to infrastructure
investment funded by the Act. However, ETA issued              ETA issued guidance to the workforce system
TEGL 14-08 to states and local workforce areas which           recommending strategies and encouragement to link to
provided guidance on implementation of WIA funding in          other federal infrastructure investments. The Secretary of
the Recovery Act and encouraged collaboration between          Labor issued a letter directly to each Governor requesting
the public workforce investment system and other               new jobs generated by the Recovery Act be listed on the
agencies that received Recovery Act funds. ETA also            state jobs banks, and two agreements were signed
undertook several planning initiatives to coordinate           between DOL and other federal agencies to initiate
workforce development activities with federal                  collaborative projects. However, the agreements were
infrastructure investments.                                    never implemented.
The Office of Inspector General (OIG) audited the              Cross-collaboration activities did happen in some of the
coordination activities that were planned and conducted at     states and local areas. However, we found state agencies
the federal, state, and local levels between workforce         faced significant challenges to do more because 1) staff
investment activities and federal infrastructure               shortages and furloughs hampered implementing new
investments funded by the Recovery Act.                        Recovery Act programs; 2) not all state agencies required
                                                               contractors to post Recovery Act jobs on the state jobs
WHY OIG CONDUCTED THE AUDIT                                    banks; and 3) state recovery task forces focused primarily
                                                               on meeting Recovery Act reporting requirements.
Our audit objectives were to answer the following
questions:                                                     WHAT OIG RECOMMENDED
    1. What planning efforts have the Department of
                                                               We recommended that the Assistant Secretary for
       Labor, states, and local workforce investment
                                                               Employment and Training continue to strengthen cross-
       agencies performed to coordinate workforce
                                                               collaboration efforts across federal and state agencies and
       development activities with federal infrastructure
                                                               encourage states and local areas to continue to pursue
       investments elsewhere in the Recovery Act?
                                                               collaboration as part of their regular practice.
    2. What projects and other cross-collaboration
       activities have the states, and local workforce
                                                               The Assistant Secretary agreed with our recommendation
       agencies undertaken in terms of spending
                                                               and provided examples of how ETA is moving in a
       Department of Labor Recovery Act funding for
                                                               direction consistent with the recommendation.
       workforce development activities that support
       federal infrastructure investments elsewhere in the
       Recovery Act?
    3. What has been the impact of these coordination
       efforts in terms of employing or re-employing
       workers through these projects?

READ THE FULL REPORT
To view the report, including the scope, methodology, and
full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/18-11-010-
03-001.pdf
PAGE INTENTIONALLY LEFT BLANK

                                                                     Prepared by WithumSmith+Brown PC
                                            for the U. S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditors’ Report...................................................................................... 1
 

Results in Brief .............................................................................................................. 2
 

Objective 1 —  What planning efforts have the Department of Labor, states, 

               and local workforce investment agencies performed to 

               coordinate workforce development activities with federal 

               infrastructure investments elsewhere in the Recovery Act?............ 5
 

          Several planning efforts were initiated to coordinate workforce 

          development activities with federal infrastructure investments; however, 

          implementation was generally informal and not well-coordinated......................... 5
 

          Finding 1 – Implementation of Planning Efforts for Coordination Were 

                       Generally Informal and Not Well-Coordinated Which 

                       Produced Uneven Results ................................................................ 7
 
Objective 2 —  What projects and other cross-collaboration activities have 

               the states and local workforce agencies undertaken in terms 

               of spending Department of Labor Recovery Act funding for 

               workforce development activities that support federal 

               infrastructure investments elsewhere in the Recovery Act?.......... 12
 

          Planned coordination activities and cross-collaboration did not happen as 

          intended due to significant challenges................................................................ 12
 

Objective 3 —  What has been the impact of these coordination efforts in 

               terms of employing or re-employing workers through these 

               projects? ............................................................................................. 16
 

          The data to analyze the impact of coordination is not available. ........................ 16
 

Recommendation ........................................................................................................ 17
 

          Appendix A Background ..................................................................................... 21
 
          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 23
 
          Appendix C Acronyms and Abbreviations .......................................................... 27
 
          Appendix D ETA’s Response to Draft Report ..................................................... 29
 




                                                                                       Federal Infrastructure Investments
                                                                                           Report No. 18-11-010-03-001
                             Prepared by WithumSmith+Brown PC
    for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                   Federal Infrastructure Investments
                                       Report No. 18-11-010-03-001
                                                                                                          Prepared by WithumSmith+Brown PC
                                                                                 For the U. S. Department of Labor – Office of Inspector General


WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
                                                                                                 Independent Auditors’ Report
Silver Spring, Maryland 20910 USA
301.585.7990. Fax 301.585.7975
www.withum.com
Additional Offices in New Jersey                              September 30, 2011
New York and Pennsylvania
                                                              Independent Auditors’ Report
                                                              Ms. Jane Oates
                                                              Assistant Secretary for Employment and Training
                                                              200 Constitution Avenue, NW
                                                              Washington, D.C. 20210

                                                              The Department of Labor (DOL) was provided funding from the
                                                              American Recovery and Reinvestment Act (Recovery Act) (P.L.
                                                              111-5) signed into law on February 17, 2009. The Recovery Act
                                                              funding was provided to, among other things, increase employment
                                                              and training opportunities. On March 18, 2009, the Employment
                                                              and Training Administration (ETA) issued Training and Employment
                                                              Guidance Letter (TEGL) 14-08 to states and local workforce areas
                                                              on implementation of the Workforce Investment Act (WIA) funding
                                                              in the Recovery Act. ETA strongly recommended collaboration
                                                              between the public workforce investment system and other
                                                              agencies that received Recovery Act funds. WithumSmith+Brown
                                                              (WS+B), under contract with the DOL OIG, audited the coordination
                                                              activities that were planned and conducted at the federal, state, and
                                                              local levels for the period from the inception of the Recovery Act
                                                              through the end of fieldwork.

                                                              Our audit objectives were to answer the questions (1) What
                                                              planning efforts have the Department of Labor, states, and local
                                                              workforce investment agencies performed to coordinate workforce
                                                              development activities with federal infrastructure investments
                                                              elsewhere in the Recovery Act?; (2) What projects and other
                                                              cross-collaboration activities have the states and local workforce
                                                              agencies undertaken in terms of spending Department of Labor
                                                              Recovery Act funding for workforce development activities that
                                                              support federal infrastructure investments elsewhere in the
                                                              Recovery Act?; and (3) What has been the impact of these
                                                              coordination efforts in terms of employing or re-employing workers
                                                              through these projects?


 A member of HLB International. A world-wide organization of accounting firms and business advisers.


                                                                                                                   Federal Infrastructure Investments
                                                                                           1                           Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


The audit included a review of the WIA Recovery Act program planning processes at
ETA headquarters, the United States (U.S.) Departments of Housing and Urban
Development (HUD), Energy (DOE), and Education (ED), seven state workforce
investment boards (SWIBs), seven local workforce investment boards (LWIBs), four
state recovery task forces or similar entities, five state housing agencies, four state
departments of transportation, and two state energy departments. The seven states
included California, Michigan, Ohio, Tennessee, Florida, Illinois, and Georgia. The audit
also included surveys conducted with these entities and a review of other corroborating
data. Recovery Act funding provided by ETA to the seven states reviewed totaled
approximately $1.4 billion for WIA related activities (40% of total Recovery Act funds for
this purpose).

WS+B conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are more fully detailed
in Appendix B.

RESULTS IN BRIEF
Results in Brief
The Recovery Act did not specifically require coordination of activities related to
infrastructure investments funded by the Recovery Act. However, two of its purposes
were to preserve and create jobs and to assist those most impacted by the recession.
Therefore, even though there was no specific requirement to do so, ETA undertook
several planning initiatives to coordinate workforce development activities with federal
infrastructure investments funded by the Recovery Act. WS+B found these cross-
collaboration efforts were generally informal and not well coordinated throughout the
workforce system.

ETA promptly issued guidance to the workforce system regarding federal infrastructure
investments that included recommended strategies and encouragement to link to other
federal infrastructure investments. To reinforce this message, the Secretary of Labor
issued a letter directly to each Governor requesting the Governors’ leadership by
ensuring that all new jobs generated through the Recovery Act be listed on state jobs
banks, and ETA performed “readiness reviews” of all states and 153 local entities that
encouraged coordination with other agencies. In addition, ETA entered into two
agreements with three other federal agencies receiving Recovery Act infrastructure
investment funds. However, because implementation of these planning efforts was
generally informal and not well-coordinated, they produced uneven results. Additionally,
we found the two agreements between the DOL and other federal agencies were never
implemented as planned, although four collaborative projects related to infrastructure
investments did occur between the DOL and other federal agencies.



                                                              Federal Infrastructure Investments
                                         2                        Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


Regarding projects and activities undertaken at the state and local levels, while we
found project specific activities did occur, planned coordination activities and
cross-collaboration did not happen across-the-board as ETA intended. This occurred
because 1) state agencies faced significant challenges to implement new programs and
spend Recovery Act funding quickly while experiencing staff shortages and furloughs, 2)
not all state agencies receiving infrastructure investment funding required Recovery Act
contractors to post new jobs to the workforce development system’s public jobs banks,
and 3) the state recovery task forces established to help coordinate these efforts
primarily ended up focusing on reporting and compliance in accordance with the Office
of Management and Budget’s new Section 1512 reporting requirements. Four out of
seven LWIBs we reviewed participated in projects and other cross-collaboration
activities in terms of spending Recovery Act funding for workforce development
activities that support federal infrastructure investments.

Regarding the impact of coordination efforts on the employment or re-employment of
workers, we determined federal, state, and local level officials were not required to
specifically track the impact of coordination efforts on the employment or re-employment
of individual participants other than existing program outcome measurements. Through
surveys, we obtained anecdotal information on specific outcomes at two of the seven
LWIBs that resulted from coordination activities related to Recovery Act infrastructure
investments. These outcomes included a) participation in a transportation construction
project, which resulted in the hiring of WIA participants; b) the training and placement of
participants in weatherization project-related jobs; and c) participation in an
apprenticeship program and placement of graduates into a road construction
apprenticeship. However, based on this anecdotal evidence that we collected, we could
not determine, the impact of any coordination efforts that did occur.

We recommend the Assistant Secretary for Employment and Training continue to
strengthen cross-collaboration efforts across federal and state agencies and encourage
states and local areas to continue to pursue collaboration as part of their regular
practice.

In response to our draft report, the Assistant Secretary for Employment and Training
agreed with our recommendation and provided examples of activities it is undertaking to
move in a direction consistent with the recommendation. The Assistant Secretary’s
response is included in its entirety as Appendix D.




                                                              Federal Infrastructure Investments
                                          3                       Report No. 18-11-010-03-001
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Federal Infrastructure Investments
               4                        Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDING

Objective 1 — What planning efforts have the Department of Labor, states, and
              local workforce investment agencies performed to coordinate
              workforce development activities with federal infrastructure
              investments elsewhere in the Recovery Act?

      Several planning efforts were initiated to coordinate workforce development
      activities with federal infrastructure investments; however, implementation was
      generally informal and not well-coordinated.

Although the Recovery Act does not require coordination of activities related to
infrastructure investments funded by the Act, two of its purposes are to preserve and
create jobs and to assist those most impacted by the recession. Inherent in those
objectives is the intent that this funding be used to create and preserve jobs in many
sectors of the economy and provide additional resources for training and placement
services to unemployed workers. Because cross-collaboration was not a legislative
requirement, we found implementation of planning initiatives were generally informal
and not well-coordinated.

Department of Labor Planning Efforts

DOL undertook several planning initiatives to coordinate workforce development
activities with federal infrastructure investments funded by the Recovery Act. ETA
issued guidance to the state and local workforce agencies regarding federal
infrastructure investments and entered into two agreements with three other Federal
agencies receiving Recovery Act infrastructure investment funds. The Secretary also
sent a letter to each Governor requesting that Recovery Act jobs be posted on public
jobs banks, and 24 Governors implemented this change. In addition, ETA conducted
209 on-site state and local readiness reviews to determine implementation issues for
the Recovery Act, including coordination issues.

To implement certain aspects of the Recovery Act relating to Workforce Investment Act
activities and funding, the ETA issued TEGL 14-08 in March 2009, to state and local
workforce agencies. Through this guidance, ETA strongly encouraged workforce
agencies and local workforce investment boards (LWIBs) to review other parts of the
Recovery Act with an eye toward identifying activities to be carried out through the
Departments of Agriculture, Defense, Energy, Health and Human Services,
Transportation, and other agencies; to monitor these funding streams at the state level
in an effort to coordinate workforce development activities and maximize the return on
each investment in terms of the number of workers employed or re-employed through
such projects.

TEGL 14-08 required states to modify their plans for the implementation of the
Recovery Act and submit the modified plans to ETA for approval. As part of the

                                                              Federal Infrastructure Investments
                                         5                        Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


submission, Attachment A, Questions for WIA / Wagner Peyser State Plan
Modifications, required states to submit responses to specific questions, including a
description of how workforce agencies planned to interrelate on workforce, economic
development, and education issues, and how the state would ensure cross-agency
collaboration so that workforce investments are fully tied to other investments funded by
the Recovery Act outside of workforce development.

The TEGL 14-08 also provided an example for LWIBs, suggesting collaboration with
local government agencies and employers creating jobs in road and bridge projects,
and energy efficiency programs such as the weatherization program, among others.
However, even though ETA provided planning guidance and assistance to the states,
the implementation of cross-collaboration efforts was generally informal and not well-
coordinated so results were uneven as indicated by the following outcomes found.

At the Federal level, DOL and HUD issued a joint letter announcing the establishment of
a pilot program to link public housing residents with their LWIB and its One-Stop system
in May 2009. Under the Recovery Act, Public Housing Agencies (PHAs) received
funding to improve the energy efficiency of public housing communities across the
country and to create and preserve jobs. In August 2009, ETA issued a notice to the
state workforce agencies and LWIBs on the subject of the partnership between DOL
and HUD to alert the workforce investment system to be prepared to work with
representatives from local PHAs to connect public housing residents to One-Stop
Career Centers.

We interviewed officials at HUD and DOL, as well as two PHAs, regarding this
Memorandum of Understanding (MOU) and found that while a pilot program was
conducted in one local area in the United States, the outcome of the pilot program was
not successful, and therefore, this program was not replicated. The lack of success of
the pilot was attributed to the competency gap between the education levels required to
participate in applicable One-Stop training programs compared to the educational
competency levels of many PHA residents based on administered tests. HUD is now
pursuing best practices across the country on how to effectively address this gap. In
addition, ETA was involved in making a regional presentation to educate public housing
officials about the workforce system. HUD indicated that collaboration with ETA is
important to enable them to meet the training needs of public housing residents, but
further collaboration activities are subject to available resources at both agencies and at
the local PHAs and WIBs.

Additionally, an MOU between the ED, DOE, and Labor was issued as a non-binding
expression of intent to collaborate on linking the U.S. workforce to jobs, training and
education opportunities funded by the Recovery Act and annual appropriations. This
MOU is in effect for a period of 5 years, does not authorize or obligate funds, and is not
legally enforceable. Its objective was to efficiently and effectively advance existing and
future training and education programs; avoid duplication of effort, fill skill deficiencies
and optimize matching of training programs with employment needs; provide career

                                                               Federal Infrastructure Investments
                                           6                       Report No. 18-11-010-03-001
                                                               Prepared by WithumSmith+Brown PC
                                      For the U. S. Department of Labor – Office of Inspector General


ladders and pathways; and provide for a skilled workforce in clean energy and energy
efficiency.

The MOU was to establish a framework to assist these Departments in collaboration
and information exchange. The Departments were to establish an Oversight Committee
to facilitate and oversee the implementation efforts and provide periodic reports to the
Departments on the status of collaborative efforts. We interviewed officials at DOL, ED,
and DOE regarding this MOU, and found that it was never implemented as planned.
For example, the Oversight Committee was never established, and quarterly meetings
were not conducted as intended.

However, we found several collaborative projects related to infrastructure investments
that did occur between DOL and DOE. DOL participated in the Middle Class Task
Force Council on Environmental Quality report, Recovery Through Retrofit1 by
contributing workforce expertise in designing training programs for workers and
developing work safety guidelines. DOL also encouraged LWIBs to participate as
supporting partners in the Energy Regional Innovation Cluster (E-RIC) in Philadelphia,
Pa., to recruit, train, and place workers in jobs created in the E-RIC. In addition, several
projects funded through ETA’s Recovery Act discretionary grants related to green job
projects also involved on-going collaboration between DOL and DOE.

Officials at both HUD and DOE stated that many cross-collaborative initiatives at the
federal level were developed from informal networks between individuals across
agencies. Because of the lack of an Oversight Committee, some of the challenges
noted were not knowing who to reach out to, resource constraints, and differences in
the populations served.

Finding 1 – Implementation of Planning Efforts for Coordination Were Generally
            Informal and Not Well-Coordinated Which Produced Uneven Results

Although ETA encouraged states to identify strategies for coordinating with other state
agencies and took initiative to develop partnerships with other federal agencies at the
national level, the implementation of these planning efforts was generally informal and
not well-coordinated which produced uneven results. This occurred due to stretched
resources, the lack of a legislative requirement, and the lack of prior existing
relationships between agencies to facilitate collaboration efforts. Additionally, we found
the two agreements with other federal agencies were never implemented as planned,
although several collaborative projects related to infrastructure investments did occur
between DOL and other federal agencies.




1
   The objective of this project was to develop a Workforce Guide for Home Energy Upgrades. It involved
collaboration between the Departments of Energy, Education, and Labor, the Environmental Protection Agency, the
Small Business Administration, and other agencies.

                                                                            Federal Infrastructure Investments
                                                    7                           Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


State Level Planning Efforts

State level planning efforts were uneven across the states selected for audit and in most
instances did not reflect a coordinated cross-collaboration effort between state agencies
receiving Recovery Act funding. We performed structured interviews and reviewed
related documents and web sites in the states of 1) California, 2) Illinois, 3) Michigan, 4)
Florida, 5) Tennessee, 6) Ohio, and 7) Georgia. Our objective was to determine the
extent of planning efforts to coordinate workforce development activities with federal
infrastructure investments funded by the Recovery Act.

For each of the seven states, we performed structured interviews of officials from the
state workforce agency / state workforce investment board (SWIB), state recovery
taskforce or entity, state transportation or energy agency, state housing agency, and
LWIB. We reviewed other corroborating information and documents provided to us
including states’ modified strategic plans, local plans, MOUs or other agreements
between agencies, project outcomes, and reports submitted to the www.recovery.gov
website.

For the seven states in our sample, we also analyzed the modified State plan, including
TEGL 14-08 Attachment A, Questions for WIA / Wagner Peyser State Plan
Modifications, to determine how they specifically addressed the planned coordination
activities between workforce development activities and federal infrastructure
investments. All of the states identified activities they planned to perform in this area,
which included meetings with other state agencies, and specific projects that would be
explored. The following summarizes the relevant aspects of the state plans:

 State                          Relevant Coordination Activities Planned
 California      California would create the Green Collar Jobs Council, which includes
                 representatives from energy, education, and workforce-related State
                 agencies, as well as environmental organizations.
 Michigan        The Michigan Department of Energy, Labor, & Economic Growth
                 (DELEG), would create a strategic alliance uniting energy, workforce,
                 and economic growth with many key initiatives to ensure a continuation
                 of education and training opportunities including the Road Construction
                 Apprenticeship Readiness (RCAR) project, among others.
 Illinois        The Illinois Workforce Investment Board would create task forces for
                 the following key sectors of the economy: healthcare, manufacturing,
                 transportation and logistics, information technology, and agriculture.
                 The Department of Commerce and Economic Opportunities and the
                 Illinois Workforce Partnership will sponsor a series of Recovery Act
                 regional roundtable meetings with leaders in each of these sectors.
 Florida         The Florida workforce system would be in active dialogue and
                 relationship with the state’s energy offices and Department of
                 Community Affairs in the area of energy efficiency and weatherization
                 and the related Recovery Act funds. Connection with the Department

                                                               Federal Infrastructure Investments
                                          8                        Report No. 18-11-010-03-001
                                                      Prepared by WithumSmith+Brown PC
                             For the U. S. Department of Labor – Office of Inspector General



State                         Relevant Coordination Activities Planned
                of Environmental Protection would also occur with the water
                associations in Florida and nationwide for water infrastructure projects.

                From a workforce perspective, Florida would look closely at other
                potential infrastructure projects, like roadways, bridges, and other
                improvement projects. As part of the “Accelerate Florida” initiative, the
                Governor emphasized that maintaining, constructing, and expanding
                Florida’s transportation system contributes to economic security. These
                types of projects can be labor intensive and Florida would work to
                ensure that a ready supply of workers would be available to support
                the projects as the funding becomes available.
Ohio            State agencies would interact on workforce and economic
                development issues in a variety of forums, including regularly
                scheduled and ad hoc inter-agency meetings designed to improve
                cross-agency communication and collaboration. Additionally, quarterly
                meetings of the Governor’s Workforce Policy Advisory Board would
                provide cabinet-level officials with the opportunity to coordinate
                workforce development programs and activities.
Georgia         A state-level Recovery Act Implementation Group was established to
                discuss strategies and develop cross-agency teams to leverage
                Recovery Act funds.
Tennessee       The Volunteer State Solar Initiative, a comprehensive solar-energy and
                economic-development program, would use up to $62.5 million in
                federal Recovery Act funds to advance job creation, education,
                research, and renewable-power production in Tennessee. WIA state
                funding would support on-the-job training for eligible new hires.

                Clean Energy and Green Jobs - The state level agencies would work
                together to use new resources through the Recovery Act and the
                Tennessee Energy, Industry and Construction Consortium to recruit
                new industries and develop career awareness to Tennessee. Funding
                strategies, policy, and education would be discussed in a statewide
                conference.
                                                            Source: FY2009 State WIA Plan Documents

In addition to the state plan analysis, our discussions with state workforce officials
investigated the extent of communication about planning activities between different
state agencies and local agencies. Although not required by ETA, four SWIBs provided
communication in the form of guidance/technical assistance to LWIBs regarding federal
infrastructure recovery projects. Specifically, Tennessee and Illinois held training
meetings with LWIBs that included discussion about coordination activities. Ohio
provided guidance via Policy Letters to LWIBs and required Recovery Act transportation
job postings on the state job bank website. The California Employment Development
Department (EDD) provided guidance/technical assistance regarding federal


                                                             Federal Infrastructure Investments
                                        9                        Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


infrastructure recovery projects and attended meetings with other agencies and LWIBs
regarding how coordination should occur.
The other state agencies, such as housing and transportation reported they did not
receive any communication from federal or state officials regarding coordination of
efforts between workforce development and federal infrastructure investments, except
for the Tennessee housing agency that received guidance from the state recovery task
force.
Local Level Planning Efforts
Local level planning efforts were primarily driven by individual initiative and informal
networks that already existed, rather than a systematic, organized effort. Many LWIBs
were also required to submit modified local plans to the states to describe how they
planned to spend Recovery Act and regular WIA funding. We reviewed the modified
local plans submitted to the state for the LWIBs in our sample. Although some local
plans did make reference to coordinating with other agencies, these were very general
statements and none of the plans reviewed identified any specific projects or activities
relating to cross-collaboration on Recovery Act infrastructure investments. The relevant
aspects of the local plans are summarized below:

 LWIB                                              Relevant Aspects of Plan
 City of Detroit WIB        Described the green jobs that have been identified as
 (Michigan)                 high-growth occupations according to the State’s regional
                            analysis. The local plan also describes coordination
                            efforts with transportation on referral services.
 Tennessee LWIB             Implemented a collaborative effort between private
                            industries, local education boards, local housing
                            authorities, and other local governments to operationally
                            define programs and activities. This collaboration would
                            encourage the entities to work together to implement the
                            comprehensive local adult and youth service delivery
                            systems.
 Central Ohio LWIB          The Ohio modified state plan specifically required the
                            central Ohio LWIB to participate as an active member of
                            the inter-agency meetings to further strengthen
                            partnerships with agencies and respective agency staff.
 Los Angeles City WIB       Identified construction needs as an employment
 (California)               opportunity.
 Cook County WIB (Illinois) Required delegate agencies to coordinate outreach and
                            recruitment with WIA mandated partners, the business
                            community, community-based organizations, non-for-
                            profit/for-profit organizations, educational programs and
                            governmental agencies.
 Atlanta WIB (Georgia)      Addressed the availability of services to be coordinated
                            with other providers to avoid duplication of funding.

                                                               Federal Infrastructure Investments
                                          10                       Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General



 LWIB 	                                             Relevant Aspects of Plan
 South Florida WIB 	          The Community Workforce Program (CWP) is a
                              partnership with Miami-Dade County’s Agency to provide
                              construction trades training to residents. The Program
                              integrated the processes of recruitment, development and
                              training to improve time-to-productivity for the County’s
                              Capital Construction workforce. In practice, this means
                              construction contracts, such as the Marlins stadium,
                              would require a certain percentage of residents be
                              employed.
                                                              Source: FY2009 Local WIB Plan Documents

For each of the seven states in our sample, we selected one LWIB in each state to
perform structured interviews and reviewed other corroborating data relating to
coordination activities with federal infrastructure investments. Four LWIBs we
interviewed planned specific coordination activities, including the City of Detroit, South
Florida, East Tennessee, and Central Ohio LWIBs. These planned coordination
activities included transportation projects, neighborhood revitalization, health and
medical information technology training, weatherization, and construction training
projects.

However, weaknesses in implementation of these planning efforts at the federal, state,
and local level produced uneven collaborative results between workforce investment
activities and federal infrastructure investments. Had there been a legislative
requirement for greater cross-collaboration across agencies at all levels, more effective,
formalized efforts may have resulted.




                                                               Federal Infrastructure Investments
                                          11                       Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


Objective 2 — What projects and other cross-collaboration activities have the
              states and local workforce agencies undertaken in terms of
              spending Department of Labor Recovery Act funding for workforce
              development activities that support federal infrastructure
              investments elsewhere in the Recovery Act?

       Planned coordination activities and cross-collaboration did not happen as
       intended due to significant challenges.

Although project specific activities did occur at the state and local levels, we found that
coordination activities and cross-collaboration at the state and local levels did not
happen as planned. State agencies faced several significant challenges, which
impeded cross-collaboration activities; agencies receiving infrastructure investment
funding did not need to utilize the workforce development system to staff projects; and
the state recovery task forces established to help coordinate these efforts primarily
ended up focusing on reporting and compliance.

State Level Activities

The seven states we audited received the following amounts of Recovery Act funding
from the Employment and Training Administration in WIA program funds for workforce
development activities:

                                   State            Amount
                              California        $ 535,617,440
                              Michigan             197,117,236
                              Illinois             173,094,909
                              Florida              165,019,783
                              Ohio                 153,073,770
                              Georgia               99,994,007
                              Tennessee             71,721,699
                              Total             $1,395,638,844

Three of the seven state workforce agencies stated that they participated in projects
and other cross-collaboration activities in terms of spending Recovery Act funding for
workforce development activities that support federal infrastructure investments, as
follows:

   •	 The California SWIB provided training opportunities as part of the California
      Energy Commission to address California’s green initiative, and the SWIB lead
      the Green Collar Job Council to help workers gain access to jobs while
      supporting the State-wide energy efficiency strategies, such as green
      infrastructure construction and retrofit.


                                                                 Federal Infrastructure Investments
                                           12                        Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


   •	 Michigan’s Department of Energy, Labor, and Economic Growth (DELEG) placed
      energy auditors for the Bureau of Energy, trained statewide health record
      managers for the Community Health Agency, and mandated all jobs to be posted
      to the Talent Bank system used by the workforce development agencies, among
      other projects. The modified Michigan state plan describes the Road
      Construction Apprenticeship Readiness Program (RCAR) as a
      pre-apprenticeship program to provide personalized training in job readiness
      skills necessary in construction trades over a 3-year period. The RCAR program
      was developed and implemented through a partnership including faith and
      community-based partners, the Michigan Department of Transportation, the
      Michigan Department of Energy, Labor & Economic Growth, trade unions and
      local Michigan Works Agencies (LWIBs). This program is organized by the state
      and implemented by the LWIBs, and includes formal agreements regarding
      provisions of services. The Michigan SWIB was not able to provide information
      concerning the funds obligated or expended in this program as they did not
      maintain this data.

   •	 Tennessee worked with other state agencies and institutions of higher education
      on several downtown revitalization projects. The SWIB also collaborated with the
      State Department of Energy on a solar institute to train solar installers. The SWIB
      coordinated activities with the State Department of Human Resources, other
      State agencies, and LWIBs to implement a pilot program in one county using
      Temporary Assistance to Needy Families (TANF) funding from the U.S.
      Department of Health and Human Services (HHS) to subsidize employment with
      other State agencies and private employers. The SWIB handled eligibility, while
      the LWIB handled personnel placement. Approximately $10.8 million was spent
      through this program, and the largest number of employees placed within state
      agencies was the Tennessee Department of Transportation. Plans were then
      developed for four additional counties, each receiving between $2 and $4 million,
      and the SWIB contracted directly with the LWIB in these counties for the
      provisions of these services.

Ohio, Illinois, Florida and Georgia did not participate in federal infrastructure investment
projects with other agencies at the state level. SWIB officials reported to us that they
coordinated with other state agencies on non-infrastructure related projects, did not
receive any requests from other agencies on coordination of infrastructure investments,
did participate in recovery task forces, and used Recovery Act funding primarily to
provide local workforce areas additional capacity for ongoing activities.

The states faced several significant challenges, which hindered their ability to undertake
these types of coordination activities. Some of these challenges included the following:




                                                               Federal Infrastructure Investments
                                          13                       Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General




                                                                        States Reporting
                            Challenge                                      Challenge
                                                                            California
 The need to spend funds quickly in accordance with the                     Michigan
 Recovery Act while coordinating with other agencies takes time              Florida
 they did not have.                                                          Georgia
                                                                           Tennessee
                                                                            California
                                                                            Michigan
 Statewide staffing problems presented obstacles to task force
                                                                              Illinois
 participation while trying to get programs started.
                                                                             Florida 

                                                                             Georgia 

                                                                            Michigan 

                                                                              Illinois 

 No information sharing between agencies and lack of prior
                                                                             Florida
 coordination efforts hampered collaboration.
                                                                             Georgia
                                                                           Tennessee

We also found when state workforce agencies did not have prior existing relationships
with other state agencies, coordinating activities were less likely to occur. The
coordination activities were often the result of individuals who had connections or
contacts with another state agency in a personal capacity, rather than a result of a
systematic or organized effort.

Another factor impeding collaboration efforts was that the Recovery Act infrastructure
investments received by other state agencies (e.g. Transportation, Energy) did not
create a need for workforce development services, such as training or job placement.
For example, none of the four State Departments of Transportation in our sample
identified the need to reach out to the state workforce agencies to train or place workers
for jobs. The transportation funding was generally passed down to contractors who
either had already laid off workers or were struggling to stay in business. The
contractors therefore did not have workforce development needs that would have
resulted in these types of coordination activities.

Recovery Act task forces did not function as intended as it relates to cross-collaboration
efforts for Recovery Act infrastructure projects. Each of the seven states in our sample
had a statewide task force or similar entity focused on economic recovery and the
Recovery Act. We contacted these taskforces and found that, although in many cases
they were designed to foster collaboration efforts, they primarily ended up focusing on
Section 1512 reporting and other compliance issues required as a result of the
Recovery Act. In three states, these task forces were no longer in existence and in the
remaining four states they had been significantly reduced in size and scope.



                                                              Federal Infrastructure Investments
                                         14                       Report No. 18-11-010-03-001
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


Local Level Activities

Certain specific programs and projects were initiated at the local levels relating to
cross-collaboration efforts. Four out of seven LWIBs in our sample stated they
participated in projects and other cross-collaboration activities in terms of spending
Recovery Act funding for workforce development activities that support federal
infrastructure investments.

The City of Detroit WIB (Michigan) identified nine programs including collaboration with
the Michigan Department of Transportation in training classes and a weatherization
training program through the Detroit Department of Human Services. These nine
programs stemmed from a variety of initiatives. Two of the programs were specifically
listed in the Michigan modified state plan and implemented by the LWIBs. Local private
organizations approached the LWIB to join as a partner in three of the programs. The
remaining four programs resulted from a variety of governor-lead task forces, which
prompted communication between state agencies.

The South Florida Workforce Investment Board identified two programs including
training WIA participants for healthcare infrastructure investments and transportation
infrastructure investments such as the construction of the Port of Miami tunnel. These
two programs resulted from the State’s Recovery Act Task Force taking a strategic
approach to local communities bringing local leaders together to dialogue across
geographic boundaries.

The East Tennessee LWIB identified several programs resulting from
cross-collaboration activities. The LWIB reached out to technology centers at local
colleges to develop medical information training programs. In addition, the LWIB was
contacted by a number of state agencies such as the Tennessee Department of
Community Economic Development to develop infrastructure work with industrial
prospects. The Volunteer State Solar Initiative was detailed in the Tennessee modified
state plan and implemented by local business, labor, and local and state governments.

The Central Ohio LWIB participated with a state university on a neighborhood
revitalization effort and provided funding and training of WIA participants on this project.
The Ohio modified state plan specifically listed the Constructing Futures
pre-apprenticeship project, which was created through collaboration between
transportation, labor, and construction organizations.

The Los Angeles City WIB (California), Cook County WIB (Illinois), and Atlanta WIB
(Georgia) were not aware of projects with other agencies within their jurisdictions.




                                                               Federal Infrastructure Investments
                                          15                       Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


Objective 3 — What has been the impact of these coordination efforts in terms of
              employing or re-employing workers through these projects?


      The data to analyze the impact of coordination is not available.

Federal, state, and local level officials were not required; and therefore, did not track
outcome measures such as employing workers specifically related to federal
infrastructure investments. DOL requires states to track program outcome measures
related to the WIA services it provides, but does not have a means other than anecdotal
data to assess the impact of coordination efforts related to federal infrastructure
investments. As a result, we could not determine the impact of any coordination efforts
that did occur. The only information we are able to report on was the anecdotal
information provided to us.

Additionally, when an LWIB was involved in a particular program or project but was not
the lead agency, the LWIB did not have outcome data on that project. LWIBs do not
have outcome data on projects outside of the scope of normal reporting requirements.
Although LWIBs received funding through the Recovery Act from DOL and other federal
agencies, and are required to submit jobs created/retained data through the OMB
required Section 1512 reporting, they correctly reported jobs created when the LWIB
was the employing agency, per federal guidance. LWIB tracked participant job
placement and job retention separately through an ETA reporting system, but the ETA
performance reporting system does not track, and was not required to track, Recovery
Act versus non-Recovery Act participant data.

Grantees and contractors that did receive Recovery Act infrastructure investment funds
are reporting jobs created or retained on the Section 1512 reporting. However, grantees
and contractors were not required to, and do not, report whether these jobs include WIA
participants. Therefore there is no way to determine how many, if any, were a result of
collaboration with the workforce system or were for hires relating to WIA participants
other than anecdotal information.

Because of the lack of available reported data to analyze, we included in our sample
one LWIB in each State in our sample of seven states. We obtained information on
specific outcomes at two of the seven LWIBs as a result of coordination activities
related to Recovery Act infrastructure investments as follows:

      The South Florida WorkForce Investment Board collaborated with the Miami
      Department of Transportation in the hiring efforts for the Port of Miami Tunnel
      Project. The South Florida WorkForce is working with Bouygues Civil Works
      Florida (BCWF), the general contractor in the hiring process for vendor services
      and individuals. This partnership has resulted in 23 hires for the Port of Miami
      tunnel project.



                                                              Federal Infrastructure Investments
                                         16                       Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


      The Detroit WIB collaborated with the City’s Department of Human Services and
      local contractors to insulate walls and attics for more than 4,500 Detroit homes to
      be weatherized. The Detroit WIB worked with community colleges to offer free
      training in weatherization work without direct agreements. The LWIB used
      Recovery Act funds to train adult and dislocated workers in three educational
      groups in community colleges. Tangible outcomes resulted in 58 participants
      graduating and 38 participants placed in weatherization jobs. An additional six
      participants were placed in non-weatherization jobs.

      The City of Detroit WIB participated in the Road Construction Apprenticeship
      Readiness Program (RCAR) with the SWIB and the State DOT. This 3-year
      program placed minority/low income/female participants into construction jobs.
      The LWIB paid a stipend during the 9-week pre-apprenticeship program, which
      turned into an apprenticeship with the provider. In 2009, of the 30 participants,
      24 graduated, 9 were placed in road construction employment, and 6 were
      placed in non-road construction employment. Thirteen of the 24 graduates also
      went through an apprenticeship program. In 2010, of the 15 participants, 13
      graduated and 12 were placed in an apprenticeship.

The remaining five LWIBs either did not participate in or were not able to provide us
outcome information on collaboration efforts with federal infrastructure investment
projects as this information was not tracked and maintained.

Even though it was not required by federal or state regulations and significant
challenges were present, some positive outcomes did occur at the local levels by
pursuing these collaboration efforts. In some cases, dialogues with other agencies
occurred that had not existed before. In the cases identified above, positive outcomes
did occur as it related to job placement or retention.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training continue to
strengthen cross-collaboration efforts across federal and state agencies and encourage
states and local areas to continue to pursue collaboration as part of their regular
practice.

We appreciate the cooperation and courtesies that DOL personnel extended to
WithumSmith+Brown during this audit.




                                                              Federal Infrastructure Investments
                                         17                       Report No. 18-11-010-03-001
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Federal Infrastructure Investments
               18                       Report No. 18-11-010-03-001
                                        Prepared by WithumSmith+Brown PC
               For the U. S. Department of Labor – Office of Inspector General




Appendices 





                                               Federal Infrastructure Investments
                          19                       Report No. 18-11-010-03-001
                                 Prepared by WithumSmith+Brown PC
        For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        Federal Infrastructure Investments
                   20                       Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


                                                                         Appendix A
Background
Appendix A Background
President Obama signed the Recovery Act (P.L. 111-5) into law on February 17, 2009.
The Recovery Act provides the US DOL with funding to, among other things, increase
employment and training opportunities. The stated purposes of the Recovery Act are to:

          •	 Preserve and create jobs and promote economic recovery;
          •	 Assist those most impacted by the recession;
          •	 Provide investments needed to increase economic efficiency by spurring
             technological advance in science and health;
          •	 Invest in transportation, environmental protection, and other infrastructure
             that will provide long term economic benefits; and stabilize state and local
             government budgets, in order to minimize and avoid reductions in
             essential services and counterproductive state and local tax increases.

The Recovery Act required agencies to implement an unprecedented level of
transparency and accountability to ensure the public could see where and how their tax
dollars were being spent and recipients of these funds deliver programmatic results.

The Recovery Act did not define “infrastructure investments.” Consequently,
interpretation of “infrastructure investments” under the Recovery Act may have varied
across federal agencies. These agencies included, but were not limited to the
Departments of Energy, Housing and Urban Development, and Transportation. Federal
agencies distributed these funds to states and non-governmental organizations as both
formula and discretionary grants. State agencies obligated the funds through grants,
contracts, loans or other financial mechanisms.

On March 18, 2009, the ETA issued TEGL 14-08 to states and local workforce areas on
implementation of the WIA funding in the Recovery Act. ETA encouraged collaboration
between the public workforce investment system and other agencies that received
Recovery Act funds. DOL recognizes that other federal agencies are providing
Recovery Act funds to states and local areas for activities that could potentially create
jobs and/or training opportunities for unemployed workers. The TEGL contains multiple
references to opportunities for collaboration.




                                                              Federal Infrastructure Investments
                                         21                       Report No. 18-11-010-03-001
                                 Prepared by WithumSmith+Brown PC
        For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        Federal Infrastructure Investments
                   22                       Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria
Appendix B Objectives, Scope, Methodology, and Criteria
Objectives

The objectives of our audit were to determine:

   1. What planning efforts have the Department of Labor, states, and local workforce
      investment agencies performed to coordinate workforce development activities
      with federal infrastructure investments elsewhere in the Recovery Act?

   2. What projects and other cross-collaboration activities have the states, and local
      workforce agencies undertaken in terms of spending Department of Labor
      Recovery Act funding for workforce development activities that support federal
      infrastructure investments elsewhere in the Recovery Act?

   3. What has been the impact of these coordination efforts in terms of employing or
      re-employing works through these projects?

Scope

Our performance audit covered the period from inception of the Recovery Act,
February 17, 2009, through the end of fieldwork. We conducted our fieldwork at the
ETA National Office in Washington, D.C.; at a pilot site visit in Trenton, N.J.; and
through phone interviews and review of other corroborating data in seven selected
states (California, Illinois, Michigan, Florida, Tennessee, Ohio, and Georgia) including a
variety of State and local agencies, as well as the National Offices of the HUD, DOE,
and Education.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings and conclusions based on our
audit objectives.




                                                              Federal Infrastructure Investments
                                         23                       Report No. 18-11-010-03-001
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General


Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery Act,
which provides funding and outlines the requirements for the WIA programs. We also
conducted interviews with ETA officials from the Office of Workforce Investment and
reviewed implementation guidance, including TEGL 14-08 and other documentation.
Furthermore, we reviewed ETA’s website and Recovery.gov for Recovery Act-related
material.

We judgmentally selected seven states to conduct structured interviews and reviewed
other corroborating data at the state and local levels. In selecting the states, our
objective was to achieve significant program coverage in terms of Recovery Act dollars
to be expended, including infrastructure investment dollars, as well as adequate
geographic coverage. Since the states and other entities selected for audit were
judgmentally selected, the reported results can not be projected to all states and other
entities.

At the state level, we interviewed State Workforce Agency/State Workforce Investment
Board directors and program staff, officials from the State Departments of
Transportation, Energy, and Recovery Task Forces or similar entities. We also
reviewed the modified state plans and compared the plans to the guidance in TEGL
14-08 as it related to our audit objectives. At the local levels, we interviewed LWIB
directors and program staff, reviewed modified local plans where available, and
interviewed officials from Public Housing Authorities.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with
significant laws, regulations, and other requirements. For this assignment, we obtained
an understanding of ETA’s process for coordinating collaboration with other agencies on
Federal infrastructure investments. The testing of internal controls over this process
was not determined to be significant to our audit objectives

Criteria

We used the following criteria to accomplish our audit:

      •	 The American Recovery and Reinvestment Act of 2009, dated 

         February 17, 2009 (P.L.111-5) 

      •	 Workforce Investment Act of 1998, as amended, dated August 7, 1998
      •	 WIA Regulations – 20 CFR 660 through 667, dated August 11, 2000
      •	 Office of Management and Budget (OMB) Memoranda:
         o	 M-09-10: Initial Implementing Guidance for the American Recovery
             and Reinvestment Act of 2009, dated February 18, 2009


                                                              Federal Infrastructure Investments
                                         24                       Report No. 18-11-010-03-001
                                              Prepared by WithumSmith+Brown PC
                     For the U. S. Department of Labor – Office of Inspector General


   o	 M-09-15: Updated Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009, dated April 3, 2009
•	 Training and Employment Guidance Letter No. 14-08, Allotments for
   Training and Employment Services as Specified in the ARRA for
   Activities Under the WIA, dated March 18, 2009




                                                     Federal Infrastructure Investments
                                25                       Report No. 18-11-010-03-001
                                 Prepared by WithumSmith+Brown PC
        For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        Federal Infrastructure Investments
                   26                       Report No. 18-11-010-03-001
                                                    Prepared by WithumSmith+Brown PC
                           For the U. S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations
Appendix C Acronyms and Abbreviations
BCWF           Bouygues Civil Work Florida
CWP            Community Workforce Program
DELEG          Department of Energy, Labor, & Economic Growth
DOL            Department of Labor
DOE            Department of Energy
ED             Department of Education
EDD            Employment Development Department
E-RIC          Energy Regional Innovation Cluster
ETA            Employment and Training Administration
HHS            Health and Human Services
HUD            Housing and Urban Development
LWIB           Local Workforce Investment Board
MOU            Memorandum of Understanding
OIG            Office of Inspector General
OMB            Office of Management and Budget
PHA            Public Housing Authority
RCAR           Road Construction Apprenticeship Readiness
SWIB           State Workforce Investment Board
TANF           Temporary Assistance to Needy Families
TEGL           Training and Employment Guidance Letter
WIA            Workforce Investment Act
WS+B           WithumSmith+Brown




                                                           Federal Infrastructure Investments
                                      27                       Report No. 18-11-010-03-001
                            Prepared by WithumSmith+Brown PC
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   Federal Infrastructure Investments
              28                       Report No. 18-11-010-03-001
                                                               Prepared by WithumSmith+Brown PC
                                      For the U. S. Department of Labor – Office of Inspector General


                                                                                                            Appendix D
ETA’s Response to Draft Report
                                                     Appendix

       U.S. Department of Labor                   Assistanl Sacre1ary for
                                                  Ernploymotnt and Training
                                                  Washinglon. D.C. 20210




                  SEP 30 20n

               MEMORANDUM FOR:               ELLIOT P. LEWIS
                                             Assistant Inspector General
                                             Office of Audit

               FROM:                         JANEOATES          ~             IhJ...-,
                                             Assistant SecretaryU

               SUBJECT:                      Management's Response to the Office of the Inspector
                                             General's Audit of the Recovery Act: Implementation of
                                             Planning Efforts to Coord/nate Worlrforce Developmenl
                                             ActivWes With Federal Infrastructure im>estments, Audit
                                             Report 18-1 1-010-03-001

               Thank you for the opportunity to respond to the final report cited above. The
               Employment and Training Administration (ETA) appreciates the time and effort your
               staf'fspent to meet with my staff and to incorporate our comments into the report.

               ETA is very pleased with the workforce system's abi lity to quickly and successfully
               fulfill the legislative requirements of the American Recovery and Reinvestment Act
               (ARRA). In addition to ensuring all of our legislative obligations were met, ETA
               encouraged activities and practices that would help optimize this valuable infusion of
               funds, including the coordination of workforce development resources with other federal
               infrastructure investments. The public workforce system assisted in the placement of
               over 6 millionjobseekers into available jobs throughout the country in both Program
               Year 2009 and Program Year 2010 - the heart of the Recovery Act period.

               The report accurately acknowledges that while coordination with Federallnftastructure
               Investments was not a legislative requirement, ETA proactively issued guidance and
               tedmica1 assistance around this subject. Within just 30 days from the passage of ARRA,
               ETA outlined substantive guidance in Training and Employment Guidance Letter
               (TEGL) 14-08. The Secretary of Labor then issued a letter directly to each Governor
               requesting the Governor's leadership in "connecting workers to Recovery Act jobs" by
               ensuring that all "new jobs generated through the Recovery Act are listed on your state
               job bank" and that they "oonnect together the range of activities funded by the Recovery
               Act." As a result, at least 24 states required ARRA-created jobs to be posted to the state
               job banks.

               In addition, ETA oonducted an on-site "readiness review" of all states and 153 local
               enlilies which included infonnation about each state's ability to coordinate with other




                                                                                                                   D
                                   ETA’s Response to Draft Report


                                                                                     Federal Infrastructure Investments
                                                       29                                Report No. 18-11-010-03-001
                                                  Prepared by WithumSmith+Brown PC
                         For the U. S. Department of Labor – Office of Inspector General




                                              2

agencies engaged in Recovery Act activity. The feedback received from the readi ness
reviews informed ETA's technical assistance agenda for ARRA which included the
hosting of six Regional Recovery and Reemployment forums at which the coordination
activities were encouraged (e.g., Job Creation in Energy).

ETA provided further guidance through Webinars and other activities to encourage state
and local workforce areas to link employment and training with new and emerging jobs.
For example, ETA hosted the National Road to Recovery Summit which included
sessions on how to develop and apply real-time labor market information (such as current
job postings) to encourage optimal connection to job opportunities. Collectively, the
guidance and technical assistance made an impact in the workforce system as evidenced,
in part, by the fact that the seven states interviewed as part or this audit included
collaboration plans and the majority of the states provided guidance or technical
ass istance to local areas.

We offer the following response to the sole recommendation in your memorandwn.

Recommendation: That the Assistant Secretary for Employment and Training continue
to strengthen cross-collaboration efforts across Federal and state agencies and encourage
states and local areas to continue to pursue collaboration as part of their regular practice.

ETA's Response: ETA agrees with the Office oflnspector General (DIG)
recommendation that the agency should continue to strengthen cross-collaboration
efforts. The agency has engaged in a variety of activities that show the agency continues
to move in a dinx:tion consistent with the recommendation. Below are some noteworthy
examples:

    1. Worliforce Investment Fund: Most recently, ETA has engaged in a consultation
       process with FederaJ partners to discuss the planning, development, and
       implementation of the Workforce Investment Fund (WIF) which is designed to
       test and evaluate best practices within the workforce system. This is one of the
       most important investments ETA will make in nx:ent years and severa] Federal
       partners have pledged their support. The solicitation, scheduled to be released in
       the fall of2011, will encourage system change and cross--agency alignment at the
       state and local levels to improve employment outcomes, better connect employers
       with the skills they need, and increase the cost-effective delivery of services.
    2. TANF-WIA Colloboration: A joint leuer (TEGL 24-09) was issued between the
       U.S. Department of Labor and the U.S. Department of Health and Human
       Services to identify and explore areas of collaboration that support training and
       employment opportunities for low-income families, particularly opportunities to
       place eligible T ANF participants in subsidized employment. The guidance
       encourages cross-collaboration efforts, stating "it is our hope that this national
       partnership focused on subsidized employment will be modeled throughout state
       and local T ANF and workforce agencies."
    3. Career Pothways Initiative: The Department of LaborlETA, Department of
        Education/Office of Vocational and Adult Education (OV AE), and the




                                                                      Federal Infrastructure Investments
                                         30                               Report No. 18-11-010-03-001
                                                Prepared by WithumSmith+Brown PC
                       For the U. S. Department of Labor – Office of Inspector General




                                            J

      Department of Health and Human Services/Administration on Children and
      Families (ACF) are engaged in a cross-agency partnership to promote best
      practices around career pathways at the state and local leveL The tenn "career
      pathway" means a clear sequence of education coursework andlor training
      credentials which lead up a career ladder. The Federal partnership has
      encouraged a diverse group of representatives from state and local agencies,
       private and non-profit partners, and employers and members of the business
       community collaborate to design, craft, and implement a shared vision. More
       than 13 states along with their local partners are participating. Our website
       includes infonnation on how the Federal partners are collaborating as well as the
      critical "how to" examples for stale and local areas to implement this vision. In
      the fall or20ll, this Federal partnership will take an additional step by issuing a
      Quick Start Action Planner for areas interested starting up career pathways
      programs. lnfonnation will be made available at the Career Pathways Initiative
      website https:/IIeamwork.workforce3Qne.org.
   4. Unified Planning: The Department of LaborlETA and its Federal partners
      (DOUVeterans Employment and Training Services. Department of
      EducationiOV AE and Rehabilitation Services Administration, the Department of
      Health and Human ScrviceslACF, Department of AgriculturelSupplemental
      Nutrition Assistance Program, Housing and Urban Development/Community
      Development Block Grant Program are taking steps to enhance the Stale planning
      process across multiple programs and to improve the ability of States to submit a
      single, integrated or unified plan, which is an option available in Section 501 of
      the Workforce Investment Act. DOL and its Federal partners are in the process of
      identifying activities they can pursue together for FY 2012, including joint Stale
      consultations; issuing ajoint letter 10 State stakeholders on key COIU"lection
      opportunities; providing technical assistance; and identifying joint activities or
      pilot projects to improve integrated program planning and aligrunent in 2012. In
      FY 2013, DOL and its Federal partners intend to issue redesigned unified
      planning guidance that streamlines paperwork processes and eliminates multiple
      and overlapping planning requirements across programs.
   5. We are engaged in many other Joint Federal Initiatives, such as:
      o MOU with SSA to provide technical assistance to the One-Stop system 10
           better serve disabled jobseekers; and
      o Prisoner Reentry: ETA's Division of Youth Services and the U.S. Justice
           Department to strengthen communities and help ex-offenders successfully
           transition in those communities.

ETA appreciates the opportunity to share follow-up activities that address the concerns of
the audit.

Please let us know if these on-going and planned actions results in closing this
recommendation. Thank you again for the opportunity to comment. If you have any
questions, please contact Christine Ollis at (202) 693-3937.




                                                                  Federal Infrastructure Investments
                                       31                             Report No. 18-11-010-03-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT: 


  Online:      http://www.oig.dol.gov/hotlineform.htm
  Email:       hotline@oig.dol.gov

  Telephone:   1-800-347-3756
               202-693-6999

  Fax:         202-693-7020

  Address:     Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
